APPENDICES

APPENDIX A
COURT OF APPEALS FOR THE EIGHTH CIRCUIT DECISION

COURT OF APPEALS FOR THE EIGHTH CIRCUIT DECISION
APPENDIX A

United States of America, Plaintiff - Appellee v. Maksim Stefanvuk. Defendant - Appellant
UNITED STATES COURT OF APPEALS FOR THE EIGHTH CIRCUIT
944 F.3d 761; 2019 U.S. App. LEXIS 36662
No. 18-3364
October 18, 2019, Submitted
December 11, 2019, Filed
Editorial Information: Prior History
{2019 U.S. App. LEXIS 1}Appeal from United States District Court for the District of South Dakota Sioux Falls.United States v. Stefanvuk. 2018 U.S. Dist. LEXIS 109794 (D.S.D., July 2, 2018)
Counsel

For United States of America, Plaintiff - Appellee: Jeffrey C. Clapper,
Assistant U.S. Attorney, U.S. Attorney's Office, District of South Dakota, Sioux Falls, SD;
Cheryl Schrempp DuPris, Assistant U.S. Attorney, U.S. Attorney's Office, District of South
Dakota, Pierre, SD.
Maksim Stefanvuk. Defendant - Appellant, Pro se, Oxford, Wl.
For Maksim Stefanvuk. Defendant - Appellant: Jason J.
Tupman, Assistant Federal Public Defender, Federal Public Defender's Office, Sioux Falls,
SD.
Judges: Before SMITH, Chief Judge, GRUENDER and BENTON, Circuit Judges.
CASE SUMMARYDefendant's conviction and 262-month sentence for violating 18 U.S.C.S. §§
2252A(a)(2)(A) and 2250(a) were affirmed since the district court did not err by denying his motion to
suppress electronic video surveillance equipment evidence, and it did not abuse its discretion by
admitting evidence about his prior child pornography conviction.
OVERVIEW: HOLDINGS: [1]-The district court did not err by denying his motion to suppress since the
failure to suppress the electronic video surveillance equipment evidence did not sufficiently influence the
jury to merit reversal, and thus was harmless error; [2]-The district court did not abuse its discretion by
admitting evidence about his prior child pornography conviction as it was admissible under Fed. R. Evid.
414 as that conviction was basically the same crime, the same criminal type of conduct or by finding the
evidence was admissible under Fed. R. Evid. 404(b).
OUTCOME: Judgment affirmed.
LexisNexis Headnotes
Criminal Law & Procedure > Pretrial Motions > Suppression of Evidence
Criminal Law & Procedure > Appeals > Standards of Review > Clearly Erroneous Review >
Findings of Fact
Criminal Law & Procedure > Appeals > Standards of Review > Clearly Erroneous Review >
Motions to Suppress
Criminal Law & Procedure > Appeals > Standards of Review > De Novo Review > Motions to
Suppress

A08CASES

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

11578273

An appellate court affirms the denial of a motion to suppress unless it is unsupported by substantial
evidence, based on an erroneous interpretation of the law, or, based on the entire record, it is clear that a
mistake was made. It reviews findings of fact for clear error and legal conclusions de novo.
Criminal Law & Procedure > Appeals > Standards of Review > Harmless & Invited Errors >
Definitions
An error is harmless if it does not affect substantial rights of the defendant, and did not influence or had
only a slight influence on the verdict.
Criminal Law & Procedure > Appeals > Standards of Review > Abuse of Discretion > Evidence
Evidence > Procedural Considerations > Rulings on Evidence
An appellate court reviews evidentiary rulings for abuse of discretion.
Criminal Law & Procedure > Criminal Offenses > Sex Crimes > Child Pornography
Evidence > Relevance > Sex Offenses > Similar Crimes > Child Molestation Cases
In a criminal case in which a defendant is accused of child molestation, the court may admit evidence
that the defendant committed any other child molestation. The evidence may be considered on any
matter to which it is relevant. Fed. R. Evid. 414(a). Offenses of child molestation include possession of
child pornography. Fed. R. Evid. 414(d)(2)(B).
Evidence > Relevance > Prior Acts, Crimes & Wrongs
Fed. R. Evid. 404(b) permits the admission of evidence of other crimes or similar acts if relevant to
establish motive, opportunity, intent, preparation, plan, knowledge, identity, absence of mistake, or lack
of accident. Rule 404(b) is a rule of inclusion; a district court has broad discretion to admit Rule 404(b)
evidence.
Opinion
Opinion by:

BENTON
Opinion

(944 F.3d 762} BENTON, Circuit Judge.
A jury convicted Maksim M. Stefanvuk of three counts of receipt and distribution of child
pornography, in violation of 18 U.S.C. § 2252A(a)(2)(A), and one count of failing to register as a sex
offender, in violation of 18 U.S.C. § 2250(a). The district courtl sentenced him to 262 months'
imprisonment. Stefanvuk appeals the denial of his motion to suppress and the admission of
evidence about his prior child pornography conviction. Having jurisdiction under 28 U.S.C. § 1291,
this court affirms.
In 2011, Stefanvuk pled guilty to possessing child pornography. In 2017, law enforcement
discovered that someone{2019 U.S. App. LEXIS 2} residing in his house was viewing child
pornography. Homeland Security Investigations Special Agent Charla Aramayo began physically.

A08CASES

2

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and' conditions of the Matthew Bender Master Agreement.

11578273

surveilling the house. Eventually, she requested electronic video surveillance equipment ("EVSE")
across the street. The South Dakota Division of Criminal Investigation installed a hidden pole camera
15 feet off the ground in a public right of way facing the house. The camera {944 F.3d 763} operated
for two weeks; it could pan, tilt, and zoom, but not see inside the house. Initially, the recordings were
saved, but they were lost before trial. Stefanvuk moved to suppress evidence obtained through the
EVSE. The district court denied the motion.

Stefanyuk believes the "warrantless long-term around-the-clock video recordings and surveillance of
[his] home violated his Fourth Amendment rights."2 This court affirms the denial of a motion to
suppress "unless it is unsupported by substantial evidence, based on an erroneous interpretation of
the law, or, based on the entire record, it is clear that a mistake was made." United States v. Wells,
347 F.3d 280, 286 (8th Cir. 2003). This court reviews findings of fact for clear error and legal
conclusions de novo. United States v. Davis, 569 F.3d 813, 816 (8th Cir. 2009).
The parties dispute whether the EVSE required a warrant and whether Stefanyuk's
supervised-release{2019 U.S. App. LEXIS 3} status diminished his privacy expectations. This court
need not decide these issues, however, because evidence from the EVSE did not sufficiently
influence the jury, and any error was harmless. See United States v. Davis, 449 F.3d 842, 847 (8th
Cir. 2006) ("An error is harmless if it does not affect substantial rights of the defendant, and did not
influence or had only a slight influence on the verdict.") (cleaned up). See also United States v.
Martinez, 462 F.3d 903, 910 (8th Cir. 2006) (statements should have been suppressed, but "[g]iven
the other admissible evidence against Martinez, we find that failure to suppress these statements did
not sufficiently influence the jury to merit our reversal, and thus was harmless error").
The only trial evidence from the EVSE was testimony from Agent Aramayo that she saw Stefanvuk
"arriving at the residence in a vehicle at an early hour on two specific occasions." However, there
was significant non-EVSE evidence showing he lived at that house: (1) Agent Aramayo testified that
she drove by the house and saw him outside; (2) employment and internet subscriber records listed
his address; (3) law enforcement testified that he lived at the same address in 2011 when he was
convicted of possessing child pornography; and{2019 U.S. App. LEXIS 4} (4) he was present at the
house when officers executed the search warrant. Given all the evidence, the failure to suppress the
EVSE "did not sufficiently influence the jury to merit... reversal, and thus was harmless error." Id.
II.
Stefanvuk contends the district court erred in admitting evidence, specifically testimony of an
investigating officer, about his prior child pornography conviction. This court reviews evidentiary
rulings for abuse of discretion. United States v. Holy Bull, 613 F.3d 871, 873 (8th Cir. 2010). "In a
criminal case in which a defendant is accused of child molestation, the court may admit evidence
that the defendant committed any other child molestation. The evidence may be considered on any
matter to which it is relevant." Fed. R. Evid. 414(a). Offenses of "child molestation" include
possession of child pornography. See Fed. R. Evid. 414(d)(2)(B) (holding that "child molestation"
includes "any conduct prohibited by 18 U.S.C. chapter 110"). This court has upheld the admission of
Rule 414(a) evidence when it is "strikingly {944 F.3d 764} similar" to the crime charged. United
States v. Summage, 575 F.3d 864, 878 (8th Cir. 2009). Here, the district court thoroughly
considered the admissibility of the evidence about Stefanyuk's prior child pornography conviction,
finding it was "basically the same crime, the same criminal type of conduct."
The district{2019 U.S. App. LEXIS 5} court also found the evidence admissible under Rule 404(b)
which permits the admission of evidence of other crimes or similar acts if relevant to establish

A08CASES

3

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

11578273

motive, opportunity, intent, preparation, plan, knowledge, identity, absence of mistake, or lack of
accident. Fed. R. Evid. 404(b). Rule 404(b) is a rule of inclusion; the district court has broad
discretion to admit Rule 404(b) evidence. See United States v. Butler, 56 F.3d 941, 944-45 (8th Cir.
1995) (holding that evidence of defendant's prior, uncharged sexual contact with victim was
admissible). Here, the government offered evidence of Stefanyuk's previous child pornography
conviction, including testimony of the investigating officer, to show motive, opportunity, knowledge,
and absence of mistake. The district court did not abuse its discretion in admitting the evidence.
****
The judgment is affirmed.
Footnotes

1
The Honorable Karen E. Schreier, United States District Judge for the District of South Dakota.
2
Stefanvuk moved to suppress evidence from the EVSE at trial. However, he did not challenge the
validity of the search warrant obtained for his residence even though it was obtained, in part, based
on observations from the EVSE.

A08CASES

4

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

11578273

APPENDIX B
DISTRICT COURT DECISION

\

DISTRICT COURT DECISION
APPENDIX B

7,4

UNITED STATES OF AMERICA, Plaintiff, vs. MAKSIM STEFANYUK. Defendant.
UNITED STATES DISTRICT COURT FOR THE DISTRICT OF SOUTH DAKOTA, SOUTHERN
DIVISION
2018 U.S. Dist. LEXIS 109794
4:17-CR-40042-KES
July 2, 2018, Decided
July 2, 2018, Filed
Editorial Information: Subsequent History
Affirmed by United States v. Stefanvuk. 2019 U.S. App. LEXIS 36662 (8th Cir., Dec. 11, 2019)
Editorial Information: Prior History
United States v. Stefanvuk. 2018 U.S. Dist. LEXIS 110080 (D.S.D., June 15, 2018)
{2018 U.S. Dist. LEXIS 1}For Maksim Stefanvuk. Defendant: Jason J.
Tupman, LEAD ATTORNEY, Federal Public Defender’s Office, Sioux Falls, SD.
For USA, Plaintiff: Jeffrey C. Clapper, LEAD ATTORNEY, U.S.
Attorney's Office (Sioux Falls, SD), Sioux Falls, SD.
Judges: KAREN E. SCHREIER, UNITED STATES DISTRICT JUDGE.
Counsel

Opinion
Opinion by:

KAREN E. SCHREIER
Opinion

ORDER ADOPTING REPORT AND RECOMMENDATION
On May 29, 2018, defendant, Maksim Stefanvuk. filed a motion to suppress evidence. Docket 45.
On June 14, 2018, Magistrate Judge Veronica Duffy held an evidentiary hearing on the motion to
suppress. On June 15, 2018, Magistrate Judge Veronica Duffy issued a report and recommendation
recommending that defendant's motion to suppress be denied. Docket 55. Stefanvuk was notified in
the report and recommendation that he had 14 days to file objections to the report. Even though no
objections were filed that would require de novo review under Thompson v. Nix, 897 F.2d 356 (8th
Cir. 1990), the court reviewed the matter de novo and finds that Magistrate Judge Duffy’s report and
recommendation is adopted in full. Thus, it is
ORDERED that:
1. The report and recommendation of Magistrate Judge Duffy (Docket 55) is adopted in full.
2. Defendant's motion to suppress (Docket 45) is denied.
DATED July 2, 2018.
BY THE COURT:{2018 U.S. Dist. LEXIS 2}
Is/ Karen E. Schreier
KAREN E. SCHREIER

lyhcases

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

11578273

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-3364
United States of America
Appellee
v.
Maksim Stefanyuk
Appellant

Appeal from U.S. District Court for the District of South Dakota - Sioux Falls
(4:17-cr-40042-KES-1)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
June 10, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 18-3364

Page: 1

Date Filed: 06/10/2020 Entry ID: 4922190

